i
APPENDIX
TABLE OF CONTENTS
Appendix A Arizona Supreme Court Opinion
(August 9, 2019) . . . . . . . . . . . . . . App. 1
Appendix B Arizona Court of Appeals Opinion
(June 19, 2018) . . . . . . . . . . . . . . App. 19
Appendix C Minute Entry of the Mohave County
Superior Court of Arizona
(April 5, 2016) . . . . . . . . . . . . . . . App. 30
Appendix D A r i z o n a
Court
of Appeals
Memorandum Decision
(December 23, 2014) . . . . . . . . . . App. 42
Appendix E Arizona Supreme Court Order
(July 10, 2015) . . . . . . . . . . . . . . App. 53
Appendix F Minute Entry of the Mohave County
Superior Court of Arizona
(August 1, 2016) . . . . . . . . . . . . . App. 55
Appendix G Jury Verdict Filed in the Mohave
County Superior Court
(October 10, 2013) . . . . . . . . . . . . App. 59
Appendix H Excerpt
of
T ri a l T r a nscri pt
of Proceedings in the Mohave
County Superior Court on October 10,
2013 . . . . . . . . . . . . . . . . . . . . . . . App. 61
Appendix I Minute Entry of the Mohave County
Superior Court of Arizona
(November 8, 2013). . . . . . . . . . . App. 68

App. 1

APPENDIX A
IN THE
SUPREME COURT OF THE STATE OF
ARIZONA
No. CR-18-0380-PR
[Filed August 9, 2019]
_____________________
STATE OF ARIZONA,
)
Appellee,
)
)
v.
)
)
PHILIP JOHN MARTIN, )
Appellant.
)
____________________ )
Appeal from the Superior Court in Mohave County
The Honorable Billy K. Sipe, Jr., Judge Pro Tempore
No. CR201201326
VACATED AND REMANDED
Opinion of the Court of Appeals, Division One
245 Ariz. 42 (App. 2018)
VACATED
COUNSEL:
Mark Brnovich, Arizona Attorney General, O.H.
Skinner, Solicitor General, Joseph T. Maziarz, Chief
Counsel, Criminal Appeals Section, Linley Wilson

App. 2
(argued), Assistant Attorney
Attorneys for State of Arizona

General,

Phoenix,

Aaron M. Demke, Mohave County Legal Advocate
Attorney, Jill L. Evans (argued), Deputy Legal
Advocate Attorney, Kingman, Attorneys for Philip John
Martin
JUSTICE BOLICK authored the opinion of the Court,
in which VICE CHIEF JUSTICE BRUTINEL, and
JUSTICES TIMMER, GOULD, LOPEZ, BALES
(RETIRED), and PELANDER (RETIRED) joined.
JUSTICE GOULD filed a concurring opinion.
JUSTICE BOLICK, opinion of the Court:
¶1
Philip John Martin was tried for first-degree
murder in 2013, but the jury marked the verdict form
“[u]nable to agree” on that charge and instead found
him guilty of the lesser-included offense of seconddegree murder. After successfully appealing that
conviction, Martin was retried and convicted of firstdegree murder. We hold that double jeopardy barred
Martin’s retrial for first-degree murder because the
State had a full and fair opportunity to try him on that
charge in the first trial and the jury, after full
deliberation, refused to convict.
BACKGROUND
¶2
Martin shot and killed his neighbor with a single
shotgun blast as the neighbor approached Martin’s
house to speak with him. Martin admitted that he shot
his neighbor, contending he believed the victim was
armed and coming to harm him after the victim
ignored his demands to leave. The State charged

App. 3
Martin with premeditated first-degree murder under
A.R.S. § 13-1105(A)(1).
¶3
At Martin’s first trial for first-degree murder,
the trial court provided the jury with a standard
instruction on the lesser-included offense of seconddegree murder. See State v. LeBlanc, 186 Ariz. 437
(1996). The court advised:
You may find the defendant guilty of the less
serious crime if all of you agree that the state
has failed to prove the defendant guilty of the
more serious crime beyond a reasonable doubt,
or if after reasonable efforts you are unable to
agree unanimously on the more serious crime,
and you do all agree that the state has proven
the defendant guilty of the less serious crime.
The jury returned the verdict form with the box
marked “[u]nable to agree” on the first-degree murder
charge but found Martin guilty of second-degree
murder. He was sentenced to sixteen years in prison.
¶4
Martin appealed on procedural grounds, and the
court of appeals reversed the conviction and remanded
for a new trial. State v. Martin, No. 1 CA-CR 13-0839,
2014 WL 7277831, at *5 ¶ 19 (Ariz. App. Dec. 23, 2014)
(mem. decision).
¶5
Before the second trial, the trial court granted
the State’s motion to retry Martin for first-degree
murder, over Martin’s objection that doing so would
violate double jeopardy. The court ruled that no
“implied acquittal” occurred in the first trial, that the
jury was genuinely deadlocked, and that the State
demonstrated a “manifest necessity” for continuing

App. 4
Martin’s jeopardy for first-degree murder. Therefore,
jeopardy did not terminate on the first-degree murder
charge. The court expressed its misgivings over the
ruling, however, observing that the State had the
opportunity to convict Martin of first-degree murder
and failed, that the State could not have retried Martin
for first-degree murder had he not appealed the seconddegree murder conviction, and that by doing so Martin
essentially forfeited his sixteen-year sentence and was
now exposed to a life sentence by having exercised his
appellate rights.
¶6
In the subsequent retrial, the jury found Martin
guilty of first-degree murder and the court sentenced
him to natural life in prison. The court of appeals
affirmed Martin’s conviction and sentence. State v.
Martin, 245 Ariz. 42, 46 ¶ 18 (App. 2018).
¶7
We granted review because whether double
jeopardy prevents a retrial on the greater offense in
these circumstances presents a recurring question of
statewide importance. We have jurisdiction under
article 6, section 5(3) of the Arizona Constitution.
Whether double jeopardy bars retrial is a question of
law that this Court reviews de novo. State v. Moody,
208 Ariz. 424, 437 ¶ 18 (2004).
DISCUSSION
¶8
“The constitutional prohibition against ‘double
jeopardy’ was designed to protect an individual from
being subjected to the hazards of trial and possible
conviction more than once for an alleged offense.”
Green v. United States, 355 U.S. 184, 187 (1957); see
U.S. Const. amend. V (“No person shall . . . be subject

App. 5
for the same offence to be twice put in jeopardy of life
or limb . . . .”). The protection embraces a defendant’s
“valued right to have his trial completed by a particular
tribunal” wherever possible to prevent prolonged or
repeated proceedings. Arizona v. Washington, 434 U.S.
497, 503–04 (1978) (internal quotation marks omitted).
The “general rule” is that the prosecution is entitled to
only one complete opportunity to prove the case, but
retrial on the same charge may be permissible if the
“proceeding is terminated without finally resolving the
merits of the charges against the accused.” Id. at 505.
¶9
Martin primarily relies on Green v. United States
to argue that the first trial fully resolved his guilt on
the first-degree murder charge such that the State
could only retry him for second-degree murder at his
subsequent trial. In Green, the United States Supreme
Court barred retrial on a first-degree murder charge
after the first jury was silent on that charge but
returned a guilty verdict on the lesser-included offense
of second-degree murder, and that conviction was
overturned on appeal. 355 U.S. at 186, 198. Martin
contends that by checking “[u]nable to agree” on the
verdict form here, the jury, as in Green, impliedly
acquitted him on the first-degree murder charge, thus
preventing retrial on that charge.
¶10 By contrast, the State cites Richardson v. United
States for the proposition that “a retrial following a
‘hung jury’ does not violate the Double Jeopardy
Clause.” 468 U.S. 317, 324 (1984). In Richardson, the
Court permitted retrial on two narcotics charges when
the jury was unable to reach verdicts and the trial
court declared a mistrial on those counts because “a

App. 6
trial court’s declaration of a mistrial following a hung
jury is not an event that terminates the original
jeopardy.” Id. at 318–19, 326. When the jury in
Martin’s first trial indicated it was unable to agree on
the first-degree murder charge, the State argues, it
reflected a hung jury, thus entitling the State to retry
that offense.
¶11 We agree with Martin that Green guides the
analysis here. The Court observed that it is not
“essential that a verdict of guilt or innocence be
returned for a defendant to have once been placed in
jeopardy so as to bar a second trial on the same
charge.” Green, 355 U.S. at 188. Granted, the jury in
Green was silent on the first-degree murder charge;
whereas here it specified that it was “[u]nable to
agree.” But in Green, as here, there were no
unforeseeable circumstances, such as mistrial, that
made completion of the first trial impossible. Id.
Rather, the jury considered both the greater and lesser
offense and “refused to find [the defendant] guilty” of
the greater charge. Id. at 190.
¶12 The Court in Green observed that in such
circumstances, “the great majority of cases in this
country have regarded the jury’s verdict as an implicit
acquittal on the charge of first degree murder,” but the
Court concluded that a finding that jeopardy for firstdegree murder terminated upon conviction of the
lesser-included offense “need not rest alone” on the
implied-acquittal assumption. Id. at 190–91. Rather,
jeopardy ended when the jury “was given a full
opportunity to return a verdict and no extraordinary
circumstances appeared which prevented it from doing

App. 7
so.” Id. at 191. Thus, the defendant’s jeopardy for firstdegree murder “came to an end when the jury was
discharged [after entering a verdict] so that he could
not be retried for that offense.” Id. The rule of Green is
that where the state had a full and fair opportunity to
try the defendant on a charge and the jury refused to
convict, jeopardy terminates when the jury is dismissed
following its verdict, and therefore the state may not
place the defendant in jeopardy again for that same
charge.
¶13 The Court expressly reaffirmed Green’s holding
in Price v. Georgia, 398 U.S. 323, 329 (1970). The Court
acknowledged the “concept of continuing jeopardy that
has application where criminal proceedings against an
accused have not run their full course.” Id. at 326. In
Price, the defendant was indicted for murder, and
while remaining silent as to the charge of murder, the
jury returned a guilty verdict on the lesser-included
crime of voluntary manslaughter. Id. at 324. As here,
the defendant appealed based on procedural grounds
and the conviction was overturned. Id. He was retried
for murder and again found guilty of voluntary
manslaughter. Id. While the Court held that double
jeopardy did not bar retrial on the lesser offense as the
defendant had successfully appealed the conviction, it
stated that “the first verdict, limited as it was to the
lesser included offense, required that the retrial be
limited to that lesser offense.” Id. at 327.
¶14 The Court further clarified the applicable
principles in Arizona v. Washington. In that case, the
trial judge declared a mistrial because of defense
counsel’s improper remarks during opening

App. 8
statements. 434 U.S. at 498. The Court rejected the
defendant’s argument that another trial would be
barred by double jeopardy. Id. at 515–16. The Court
noted the “general rule” that “the prosecutor is entitled
to one, and only one, opportunity to require an accused
to stand trial.” Id. at 505. That rule is grounded in the
defendant’s right to have the trial completed by a
particular tribunal and can apply “[e]ven if the first
trial is not completed.” Id. at 503. However, “retrial is
not automatically barred when a criminal proceeding
is terminated without finally resolving the merits of
the charges against the accused.” Id. at 505.
Specifically, a prosecutor may seek a mistrial over a
defendant’s objection if a “manifest necessity” exists to
do so, which the Court characterized as a “heavy”
burden. Id. The Court concluded that defense counsel’s
inappropriate comments could have led to a jury
“tainted by bias,” which satisfied the prosecutor’s
burden and justified retrial following the mistrial. Id.
at 516.
¶15 The Court also observed that the general rule of
a single opportunity to prosecute a charge does not
apply where a trial court declares a mistrial based on
a finding of “a genuinely deadlocked jury.” Id. at 509.
In that circumstance, the court may “require the
defendant to submit to a second trial” because of
“society’s interest in giving the prosecution one
complete opportunity to convict those who have
violated its laws.” Id.; cf. Richardson, 468 U.S. at
323–24 (emphasizing that “failure of the jury to agree
on a verdict” constitutes a “manifest necessity”
justifying a mistrial).

App. 9
¶16 The State here insists it did not have a full and
complete opportunity to convict Martin of first-degree
murder in the first trial because the jury indicated it
was unable to agree to a verdict on that charge. The
State correctly notes that “[u]nable to agree” does not
equate to an implicit acquittal. Cf. Richardson, 468
U.S. at 325 (holding a hung jury is not the equivalent
of acquittal). But as Green emphasizes, an implied
acquittal is sufficient but not necessary for jeopardy to
terminate. 355 U.S. at 190–91. Rather, the general rule
is that where the state had a complete opportunity to
prosecute the defendant and failed to obtain a
conviction on the greater charge, retrial on that charge
is barred. Id. at 191; see also Washington, 434 U.S. at
505. That is exactly what happened in this case as the
State fully prosecuted the first-degree murder charge
but was unable to persuade the jury to convict. See
Green, 355 U.S. at 190 (noting that jeopardy terminates
where the jury “refused to find [the defendant] guilty”
on the greater charge and that charge was “in no way
involved in his appeal”). Such a situation, where the
jury is unable to agree on one charge and convicts on
the lesser offense, cannot alone justify a finding of
“extraordinary circumstances” or “genuine deadlock”
required to meet the state’s heavy burden to continue
jeopardy. See Gusler v. Wilkinson, 199 Ariz. 391,
394–95 ¶¶ 17–18 (2001) (requiring that the state
demonstrate “manifest necessity” to overcome the
defendant’s right to have his fate decided by the
impaneled jury).
¶17 The only exception applicable here would be if
the State had demonstrated a “manifest necessity” to
support the trial court declaring a mistrial and

App. 10
discharging the jury because it was deadlocked. See
Washington, 434 U.S. at 509. The absence of that
situation here distinguishes this case from Richardson,
on which the State relies, where the prosecutor
successfully sought a mistrial based on a hung jury.
468 U.S. at 326 (“[A] trial court’s declaration of a
mistrial following a hung jury is not an event that
terminates the original jeopardy to which petitioner
was subjected.”); see also Sattazahn v. Pennsylvania,
537 U.S. 101, 114 (2003) (permitting second capitalsentencing proceeding after defendant moved to
discharge deadlocked jury). Here the jury was not
discharged because of a mistrial based on jury
deadlock, but only after it had returned a complete
verdict on the original indictment. See Brazzel v.
Washington, 491 F.3d 976, 984 (9th Cir. 2007)
(“Genuine deadlock is fundamentally different from a
situation in which jurors are instructed that if they
‘cannot agree,’ they may compromise by convicting of a
lesser alternative crime . . . .”); State v. Espinoza, 233
Ariz. 176, 179 ¶ 10 (App. 2013) (“[A] jury’s mere
statement that it has been unable to reach a verdict
after persistent deliberations—and after proceeding to
consider a lesser offense in the context of a LeBlanc
instruction—does not, without further inquiry by the
court, demonstrate a true deadlock.” (footnote
omitted)).
¶18 The process for fully and completely prosecuting
a criminal case in Arizona is set forth in LeBlanc,
which established a unitary process for jury
consideration of greater and lesser-included offenses.
186 Ariz. 437. Before LeBlanc, the approved instruction
required jurors to first acquit the defendant on the

App. 11
charged offense before considering lesser-included
offenses. State v. Wussler, 139 Ariz. 428, 430 (1984).
LeBlanc changed the instruction to allow jurors to
“render a verdict on a lesser-included offense if, after
full and careful consideration of the evidence, they are
unable to reach agreement with respect to the charged
crime.” 186 Ariz. at 438. Thus, the jury may render a
verdict on the lesser-included offense if it either acquits
the defendant on the greater offense or cannot agree on
a verdict after reasonable efforts. Id.
¶19 The Court reasoned that the “reasonable efforts”
procedure “diminishes the likelihood of a hung jury,
and the significant costs of retrial, by providing options
that enable the fact finder to better gauge the fit
between the state’s proof and the offenses being
considered.” Id. at 438–39. In other words, following a
full and complete presentation of the evidence, the jury
will first consider the greater offense, and if it is not
convinced the evidence supports a guilty verdict, it will
consider the lesser-included offense. The process is
calculated to avoid the deadlocked jury that is a
necessary predicate for a mistrial and for a second trial
on the greater offense. The Court emphasized that
“because such an instruction would mandate that the
jury give diligent consideration to the most serious
crime first, the state’s interest in a full and fair
adjudication of the charged offense is adequately
protected.” Id. at 439. And, as a necessary corollary in
applying Green and Washington, when a verdict is
reached on a lesser-included offense in accord with the
LeBlanc instruction, jeopardy terminates for the
greater offense and the defendant may not be retried
on the greater offense.

App. 12
¶20 The State concedes that the verdict here was
reached in accord with the LeBlanc instruction. The
jury was admonished to carefully consider whether the
evidence supported conviction on the greater offense,
and to consider the lesser-included offense only if it
acquitted him on the greater charge or was unable to
agree. Either way, the State had a full and complete
opportunity to prove its case for first-degree murder,
and jeopardy terminated for that crime following the
jury’s guilty verdict for second-degree murder. See
Green, 355 U.S. at 190 (“[The defendant] was in direct
peril of being convicted and punished for first degree
murder at his first trial. He was forced to run the
gantlet once on that charge and the jury refused to
convict him.”).
¶21 We recognize that this unitary approach toward
jury deliberation over greater and lesser-included
offenses does not lend itself to a ready opportunity for
the prosecution to seek a mistrial based on a
deadlocked jury. See Espinoza, 233 Ariz. at 180 ¶ 12.
However, the LeBlanc instruction is intended to
expand jury options and thereby minimize the prospect
of a hung jury. The State here did not ask us to
reconsider LeBlanc, although we do not foreclose the
possibility of doing so in a future case or rule petition.
¶22 Finally, the State argues that it was Martin who
extended jeopardy by deciding to appeal his seconddegree murder conviction. The State acknowledges that
if Martin had not appealed his conviction for seconddegree murder, double jeopardy would have prohibited
a new trial on the first-degree murder charge, but it
asserts that jeopardy continued once Martin appealed.

App. 13
The State is wrong. By appealing a conviction on a
lesser-included offense, a defendant does not restart
the jeopardy clock on a greater charge. Green, 355 U.S.
at 193.
¶23 Indeed, the Supreme Court expressly rejected as
“paradoxical” and “wholly fictional” the notion that a
defendant essentially waives double jeopardy rights by
appealing a conviction on a lesser charge. Id. at
191–93. The Court observed that “[t]he law should not,
and . . . does not, place the defendant in such an
incredible dilemma” that “he must be willing to barter
his constitutional protection against a second
prosecution for an offense punishable by death as the
price of a successful appeal from an erroneous
conviction of another offense.” Id. at 193; see also Price,
398 U.S. at 327 (stating that where the first verdict
was limited to the lesser-included offense and that
verdict was overturned on appeal, the retrial must be
limited to that offense). That dilemma is particularly
pronounced where, as in Arizona, a defendant has a
constitutional right to appeal. Ariz. Const. art. 2, § 24
(“In criminal prosecutions, the accused shall have . . .
the right to appeal in all cases . . . .”).
¶24 For the foregoing reasons, we conclude that
trying Martin a second time for first-degree murder
under the circumstances here violated his
constitutional right to be free from double jeopardy.
CONCLUSION
¶25 The State alternatively asks us to reinstate
Martin’s conviction for second-degree murder. Martin
argues that retrying him for first-degree murder may

App. 14
have made it more likely for the jury to convict him of
the lesser-included offense than if the jury had
considered the second-degree murder charge alone. See
Price, 398 U.S. at 331 (stating “we cannot determine
whether or not the murder charge against petitioner
induced the jury to find him guilty of the less serious
offense”). We vacate the court of appeals decision and
remand to the trial court to consider in the first
instance whether to reduce Martin’s conviction to the
lesser-included offense, or, if Martin can show
prejudice, to order a new trial. See Morris v. Mathews,
475 U.S. 237, 246 (1986) (describing Price as
suggesting “that a new trial is required only when the
defendant shows a reliable inference of prejudice”).

App. 15
GOULD, J., concurring.
¶26 I concur in the Court’s opinion. The Court
faithfully applies the reasonable-efforts framework set
out by State v. LeBlanc, 186 Ariz. 437 (1996), and
correctly notes that “[t]he State here did not ask us to
reconsider LeBlanc.” Supra ¶ 21. In my view, however,
its conclusion that double jeopardy attaches when a
jury enters an “unable to agree” verdict raises serious
concerns about LeBlanc.
¶27 LeBlanc never addressed the double jeopardy
consequences of a jury reaching an “unable to agree”
verdict. Generally, when a jury is hung, double
jeopardy does not attach. Richardson v. United States,
468 U.S. 317, 324 (1984) (holding “a retrial following a
‘hung jury’ does not violate the Double Jeopardy
Clause”). However, under LeBlanc, a verdict of “unable
to agree” may, but does not necessarily, mean that the
jurors are hung on the greater offense. See supra ¶ 17.
¶28 Compounding this problem is the fact that
LeBlanc’s approach “does not lend itself to a ready
opportunity for the prosecution to seek a mistrial based
on a deadlocked jury.” See supra ¶ 21. As a practical
matter, LeBlanc provides no opportunity for the state
to seek a mistrial. For example, in the typical case, if
the jurors are truly hung on a charge, they can advise
the judge that they are at an impasse. However,
because LeBlanc only requires the jurors to engage in
“reasonable efforts” in considering the greater charge
(rather than having to actually agree on a verdict of
guilty or not guilty), it seems unlikely that they would
advise the judge that they are at an impasse—

App. 16
particularly when they can simply state they are
“unable to agree” and move on to the lesser charge.
¶29 Requesting the judge to poll the jury is also not
a viable option. When the LeBlanc verdict form is
returned to the court, the jury has already reached a
verdict on the lesser offense. Under these
circumstances, why would the prosecutor request the
judge to poll the jury about their “unable to agree”
verdict on the greater charge? Worse yet, what if the
jury responds they are not hung, and they request
assistance from the court in breaking the impasse? See
Ariz. R. Crim. P. 22.4 & cmt. (stating the trial judge
may assist a jury at an impasse by “giving additional
instructions; clarifying earlier instructions; directing
the attorneys to make additional closing argument;
reopening the evidence for limited purposes; or a
combination of these measures”). Would the judge
allow additional arguments or evidence, and then
instruct the jurors to resume their deliberations on the
greater charge? Obviously not. After all, given the fact
that the jury has already reached a verdict on the
lesser offense, any new deliberations on the greater
offense are barred by double jeopardy. Brown v. Ohio,
432 U.S. 161, 168–69 (1977) (holding that double
jeopardy bars a prosecution for a greater offense after
a conviction for a lesser-included offense).
¶30 As the Court notes, jeopardy attaches if the
“state had a full and fair opportunity to try the
defendant on a charge and the jury refused to convict.”
Supra ¶ 12; see Green v. United States, 355 U.S. 184,
191 (1957). However, is this the case when the jury
states it is “unable to agree”? With such an amorphous

App. 17
verdict, how can we conclude the state has indeed had
a full and fair opportunity to try the defendant on the
greater charge, or that the jury refused to convict on
that charge? See Arizona v. Washington, 434 U.S. 497,
505 (1978) (holding that the state is entitled to one
complete opportunity to prove the case, but double
jeopardy does not bar retrial on the same charges if the
“proceeding is terminated without finally resolving the
merits of the charges against the accused”).
¶31 Before LeBlanc, Arizona used the “acquittalfirst” approach adopted in State v. Wussler, 139 Ariz.
428 (1984). Under that approach, the jury was required
to acquit the defendant on the greater charge before
considering the lesser charge. I understand LeBlanc’s
concern with the “acquittal-first” approach, although in
fairness, there are advantages and disadvantages to
both the acquittal-first and reasonable-efforts
approaches. See LeBlanc, 186 Ariz. at 439 (discussing
the advantages of the reasonable-efforts approach over
the acquittal-first approach); id. at 440–41 (Martone,
J., concurring in the judgment) (compiling cases and
discussing the advantages of the acquittal-first
approach). Indeed, the debate about which approach is
best (as well as other alternatives) existed before
LeBlanc and persists to this day. See United States v.
Tsanas, 572 F.2d 340, 344–46 (2d Cir. 1978) (compiling
cases and discussing the advantages and disadvantages
for both the government and defendant under the
acquittal-first and reasonable-efforts approaches); State
v. Davis, 266 S.W.3d 896, 904–08 (Tenn. 2008) (same);
Michael K. Kaiser, Note, Blueford v. Arkansas: Why the
United States Supreme Court’s Construction of
Arkansas’s Criminal Transitional Jury Instructions Is

App. 18
Not Binding on Arkansas Courts, 66 Ark. L. Rev. 1083,
1096–1101 (2013) (discussing the various approaches
to lesser-included offense instructions and compiling
cases regarding the same).
¶32 Although there is room for debate on this issue,
in my view the primary weakness of LeBlanc is that it
never addressed the problem we face today: the double
jeopardy consequences of allowing a jury to proceed to
a lesser charge based on a verdict of “unable to agree.”
In contrast, despite its faults, the acquittal-first
approach plainly and clearly resolves the double
jeopardy issue.
¶33 The Court states that it does “not foreclose the
possibility” of reexamining LeBlanc’s approach “in a
future case or rule petition.” Supra ¶ 21. For the
reasons discussed above, I believe the Court’s openness
to this possibility is wise.

App. 19

APPENDIX B
IN THE
ARIZONA COURT OF APPEALS
DIVISION ONE
No. 1 CA-CR 16-0551
[Filed June 19, 2018]
____________________________________
STATE OF ARIZONA, Appellee,
)
)
v.
)
)
PHILIP JOHN MARTIN, Appellant. )
___________________________________ )
Appeal from the Superior Court in Mohave County
No. S8015CR201201326
The Honorable Billy K. Sipe, Jr., Judge, Pro Tempore
AFFIRMED
COUNSEL
Arizona Attorney General’s Office, Phoenix
By Linley Wilson
Counsel for Appellee
Mohave County Legal Advocate, Kingman
By Jill L. Evans
Counsel for Appellant

App. 20
OPINION
Presiding Judge James P. Beene delivered the opinion
of the Court, in which Judge Randall M. Howe and
Judge Kent E. Cattani joined.
B E E N E, Judge:
¶1
Philip John Martin (“Martin”) was tried for firstdegree murder in 2012, but the jury, after marking on
the verdict form it was “Unable to agree” on firstdegree murder, convicted him of the lesser-included
offense of second-degree murder. Following a successful
appeal, Martin was retried and convicted of first-degree
murder. Martin appeals that conviction and resulting
sentence, arguing double jeopardy barred his second
trial for first-degree murder because the first jury’s
inability to agree on first-degree murder constituted an
implied acquittal.
¶2
We hold that double jeopardy did not bar
Martin’s second trial for first-degree murder. The first
jury clearly and formally stated it was unable to agree
on the greater charge of first-degree murder after it
was instructed that it could proceed to consider the
lesser charge if after reasonable efforts it was unable to
unanimously agree on first-degree murder. This
constituted a genuine deadlock permitting retrial on
first-degree murder, rather than an implied acquittal
barring retrial. Accordingly, we affirm Martin’s
conviction and sentence for first-degree murder.
FACTS AND PROCEDURAL HISTORY
¶3
On appeal after the first trial, we held that the
superior court had erred in refusing to give a crime

App. 21
prevention instruction, reversed Martin’s conviction for
second-degree murder, and remanded for a new trial.
See State v. Martin, 1 CA-CR 13-0839, 2014 WL
7277831, * 1, ¶ 1 (Ariz. App. Dec. 23, 2014) (mem.
decision). Before the second trial, the superior court
granted the State’s motion to retry Martin for firstdegree murder.
¶4
The evidence at trial, viewed in the light most
favorable to supporting the conviction,1 showed that
Martin and the victim were neighbors on a dirt road in
Golden Valley. Martin routinely placed railroad ties
and other debris on the road in front of his driveway to
cover ruts that developed after rainstorms. On the day
of the incident, the victim and a friend came upon these
impediments in the road. After removing a railroad tie,
the victim told his friend he was “gonna go ask why he
keeps throwing stuff across the road.” As the victim
walked toward Martin’s house, the friend saw a muzzle
blast from the front window of Martin’s house and saw
the victim fall to the ground. The victim died of
shotgun wounds to his abdomen from a single shotgun
blast.
¶5
Martin admitted to the first deputy sheriff to
arrive that he shot the victim. He told a detective and
later testified that he did so because the victim ignored
his demands to get off his property and he believed the
victim was armed and was coming toward him to harm
him.

1

State v. Boozer, 221 Ariz. 601, 601, ¶ 2 (App. 2009).

App. 22
¶6
The jury convicted Martin of first-degree
murder, and the court sentenced him to natural life.
Martin filed a timely notice of appeal. We have
jurisdiction pursuant to Article 6, Section 9, of the
Arizona Constitution and Arizona Revised Statutes
sections 12-120.21(A)(1), 13-4031, and -4033(A).
DISCUSSION2
¶7
Martin argues double jeopardy barred the State
from trying him for first-degree murder after he had
been convicted in the first trial of second-degree
murder. Specifically, Martin argues the jury’s inability
to agree on first-degree murder was an implied
acquittal and not a genuine deadlock.
¶8
Before the second trial, the superior court ruled
that Martin could be retried on first-degree murder
because the jury had checked the box on the verdict
form, “Unable to agree” on the offense of first-degree
murder after it was instructed that it could find him
guilty of the lesser crime “if all of you agree that the
state has failed to prove the defendant guilty of the
more serious crime beyond a reasonable doubt, or if
after reasonable efforts you are unable to unanimously
agree on the more serious crime, . . . .” The court
reasoned:

2

In a separate memorandum decision, State v. Martin, 1 CA-CR
16-0551, 2018 WL ____ (Ariz. App. Jun. 19, 2018), filed
simultaneously with this opinion, we address Martin’s arguments
that the superior court erred by refusing to strike the entire jury
panel on the grounds it was tainted, and that the court violated his
confrontation rights by admitting the victim’s dying declarations.

App. 23
Based on the jury instruction and based on the
verdict form, the jury clearly indicated that they
were deadlocked on the greater charge because
they were unable to agree unanimously.
Accordingly, there was not an implied acquittal
of the greater charge and the court finds there
was a genuine deadlock. Therefore, the Court
finds that the State has demonstrated a
manifest necessity for continuing the
defendant’s jeopardy for First Degree Murder.
¶9
The Double Jeopardy Clauses in the United
States and Arizona Constitutions, which are
coextensive, prohibit: “(1) a second prosecution for the
same offense after acquittal; (2) a second prosecution
for the same offense after conviction; and (3) multiple
punishments for the same offense.” Lemke v. Rayes,
213 Ariz. 232, 236, ¶ 10 and n.2 (App. 2006); U.S.
Const. amend. V; Ariz. Const. art. 2, § 10. Martin
argues his retrial on first-degree murder violated the
prohibition against a second prosecution for the same
offense after acquittal. “We review de novo whether
double jeopardy applies.” Id. at 236, ¶ 10.
¶10 The United States Supreme Court has held that
when a jury convicts on a lesser-included offense but is
silent on the greater offense, the defendant is
considered to have been “impliedly acquitted” on the
greater offense, thereby barring retrial. Green v. United
States, 355 U.S. 184, 190-91 (1957); Price v. Georgia,
398 U.S. 323, 328-29 (1970). The Supreme Court has
also held, however, that double jeopardy does not bar
retrial of charges on which a jury has been unable to
agree. Richardson v. United States, 468 U.S. 317, 324-

App. 24
26 (1984); cf. Sattazahn v. Pennsylvania, 537 U.S. 101,
104-05, 113-15 (2003) (double jeopardy did not bar the
state from seeking the death penalty on retrial after
reversal of murder conviction and life sentence; neither
the jury’s deadlock on the penalty nor the resulting
mandatory sentence of life imprisonment constituted
an acquittal of the capital charge.). When a genuine
deadlock exists, a defendant’s right to have a particular
jury decide his fate becomes “subordinate to the public
interest in affording the prosecutor one full and fair
opportunity to present his evidence to an impartial
jury.” Arizona v. Washington, 434 U.S. 497, 505, 509
(1978).
¶11 The Supreme Court has not addressed the
precise issue presented here. A number of other courts
have held, however, that when the jury convicts on a
lesser offense after stating on the record that it is
unable to agree on the greater offense, double jeopardy
presents no bar to retrial on the greater offense. See,
e.g., United States v. Bordeaux, 121 F.3d 1187, 1192-93
(8th Cir. 1997) (following successful appeal of
conviction on lesser-included offense, retrial on greater
offense not barred where jury wrote on instruction,
“[a]fter all reasonable efforts, we, the jury, were unable
to reach a verdict on the charge” of the greater
offense.); United States v. Williams, 449 F.3d 635, 645
(5th Cir. 2006) (double jeopardy did not bar retrial on
greater offenses when jury convicted for lesser offenses,
but, as indicated in jury notes, as well as in subsequent
polling, was “hopelessly deadlocked” on the element
distinguishing the lesser from the greater offenses.);
State v. Glasmann, 349 P.3d 829, 830, ¶¶ 1-3, 834, ¶ 19
(Wash. 2015) (on remand after successful appeal,

App. 25
double jeopardy did not bar retrial on greater offense
when jury had convicted for lesser offense but was
unable to agree on greater offense, as demonstrated by
leaving verdict form on greater offense blank in
accordance with instructions); People v. Aguilar, 317
P.3d 1255, 1259, ¶ 21 (Col. App. 2012) (“We conclude
that when a jury deadlocks on a greater charge but
convicts on a lesser included charge, the hung jury rule,
and not the implied acquittal doctrine, applies.”);
United States v. Allen, 755 A.2d 402, 411-12 (D.C.
2000) (double jeopardy did not bar retrial on greater
offense, on which defendant had requested a mistrial
after jury was unable to agree, notwithstanding fact
that guilty verdict had been accepted and sentence
imposed on lesser-included offense.); see also 6 Wayne
R. LaFave et al., Criminal Procedure § 25.4(d) (4th ed.)
(Dec. 2016 update), 2 and n.52 (“Application of Green
may depend on a verdict setting that indicates an
implied acquittal . . . . [N]o acquittal of a greater
offense is suggested by conviction of a lesser offense
when the jury is unable to reach agreement on the
higher offense, and this disagreement is formally
entered on the record.”).
¶12 We are similarly persuaded that the first jury’s
verdict in this case of “Unable to agree” after it was
instructed that it could proceed to consider the lesser
charge if “after reasonable efforts you are unable to
unanimously agree on the more serious crime”
constituted the “genuine deadlock” necessary to permit
retrial on the greater offense, rather than an “implicit
acquittal” barring retrial. The “implicit acquittal” found
by the Supreme Court in Green and Price rested on
significantly different circumstances. In Green, the jury

App. 26
left the verdict form for the greater offense blank but
returned a guilty verdict on the lesser-included offense,
after it was “authorized to find him guilty of either
first-degree murder (killing while perpetrating a
felony) or, alternatively, of second-degree murder
(killing with malice aforethought).” 355 U.S. at 186,
189-90. In Price, the court did not detail the jury
instructions, but simply noted that “[t]he jury’s verdict
made no reference to” the greater charge of murder.
398 U.S. at 324.
¶13 In this case, in contrast, the jury was instructed
that it could proceed to consider the lesser charge if
“after reasonable efforts you are unable to unanimously
agree on the more serious crime,” and was given a
single verdict form giving it the option of checking
“Unable to agree” on the greater charge of first-degree
murder. Martin did not object to the instruction, the
verdict form, or the clerk’s announcement in open court
of the verdict “Unable to agree” on the charge of firstdegree murder, and guilty of second-degree murder.
Under these circumstances, we conclude that the jury
was genuinely deadlocked on the charge of first-degree
murder, and double jeopardy did not bar retrial on that
charge. See Richardson, 468 U.S. at 325 (“[T]he
protection of the Double Jeopardy Clause by its terms
applies only if there has been some event, such as an
acquittal, which terminates the original jeopardy . . .
the failure of the jury to reach a verdict is not an event
which terminates jeopardy.”); cf. Renico v. Lett, 559
U.S. 766, 775 (2010) (“[W]e have never required a trial
judge, before declaring a mistrial based on jury
deadlock, to force the jury to deliberate for a minimum
period of time, to question the jurors individually, to

App. 27
consult with (or obtain the consent of) either the
prosecutor or defense counsel, to issue a supplemental
jury instruction, or to consider any other means of
breaking the impasse.”).
¶14 We are not persuaded otherwise by the cases on
which Martin relies: Brazzel v. Washington, 491 F.3d
976 (9th Cir. 2007); Gusler v. Wilkinson ex rel. Cty. of
Maricopa, 199 Ariz. 391 (2001); and State v. Espinoza,
233 Ariz. 176 (App. 2013). In none of those cases did
the verdict form itself state that the jury had been
unable to agree on the greater offense. In Brazzel, the
jury left the verdict form blank as to an attempted
murder charge and convicted the defendant of the
lesser-included assault charge. 491 F.3d at 979. Based
on a defective jury instruction, the defendant’s
conviction was set aside, and the prosecutor refiled the
attempted murder charge. Id. The trial court denied
the defendant’s request to dismiss the attempted
murder charge and proceeded to trial, at which the
defendant was again convicted only of the lesserincluded assault charge. Id. at 980. On appeal, the
Washington Court of Appeals affirmed the defendant’s
conviction, stating that although double jeopardy
barred retrial on the greater offense, the issue was
moot because the defendant was only convicted of the
lesser-included offense. Id. On federal habeas review,
however, the Ninth Circuit Court of Appeals noted that
a double jeopardy violation is not to be readily disposed
of as “moot” or harmless, holding that “we cannot
determine whether or not the murder charge against
petitioner induced the jury to find him guilty of the
[lesser offense] rather than to continue to debate his
innocence.” Id. at 986. Thus, Brazzel simply provides

App. 28
support for the proposition that there is a double
jeopardy bar when a jury leaves the verdict form for the
greater charge blank and convicts the defendant on a
lesser charge. The case does not suggest a double
jeopardy bar when the verdict form specifies that the
jurors were unable to reach a verdict on a greater
offense while convicting on a lesser-included offense.
¶15 Gusler and Espinosa are
similarly
distinguishable. In Gusler, the Arizona Supreme Court
held that the superior court erred by prematurely
granting a mistrial without having provided defense
counsel information (questions submitted by the jurors)
that might have provided a basis to object to the
proposed mistrial or to have requested more specific
inquiry to the jurors. 199 Ariz. at 395, ¶ 23. Under
those circumstances, the State had not established that
there was manifest necessity for the mistrial, meaning
double jeopardy barred retrial on the greater offense.
Id.
¶16 Similarly, in Espinoza, the jury submitted a preverdict question indicating it “may be hung on the first
offense,” and the trial court responded by indicating it
could leave the verdict form blank and consider the
lesser offense. 233 Ariz. at 178, ¶ 3. The jury then
convicted the defendant of the lesser offense, but left
the verdict form blank as to the greater offense. Id.
After vacating the conviction on the lesser offense, we
held that retrial was barred on the greater offense,
thus treating the silent verdict on the greater offense
as an acquittal. Id. at 178, ¶ 4, 179-180, ¶ 10. We noted
that the jury’s pre-verdict note demonstrated at most
that the jury could not reach an agreement on the

App. 29
greater charge after “reasonable efforts” at
deliberation, which was not equivalent to the “genuine
deadlock” necessary to permit retrial on the greater
offense. Id. at 180, ¶ 11. 3
¶17 The cases Martin cites are distinguishable. They
do not change the law that when the jury formally
states on the verdict form that it has been unable to
unanimously agree on the greater offense, this
constitutes the equivalent of the “genuine deadlock”
such that retrial is permitted on the greater offense.
Double jeopardy accordingly did not bar retrial on the
greater offense.
CONCLUSION
¶18 For the foregoing reasons, we affirm Martin’s
conviction and sentence for first-degree murder.

3

Martin also cites State v. Maloney, 105 Ariz. 348 (1970), which
held that double jeopardy barred a defendant’s retrial on firstdegree murder after he was convicted of second-degree murder as
a lesser-included offense, finding the facts in Green v. United
States, 355 U.S. 184 (1957), “completely analogous.” See Maloney,
105 Ariz. at 356-57. In Maloney, however, the court did not identify
what instruction the jury was given (whether “acquittal first” or
“unable to agree after reasonable efforts”), or suggest that the jury
reported that it was “unable to agree” on the charge of first-degree
murder, which distinguishes both Green and Maloney from this
case. See Maloney, 105 Ariz. at 357.

App. 30

APPENDIX C
IN THE SUPERIOR COURT OF THE STATE OF
ARIZONA
IN AND FOR THE COUNTY OF MOHAVE
NO. CR-2012-01326
[Filed April 5, 2016]
___________________________
STATE OF ARIZONA,
)
Plaintiff,
)
)
vs.
)
)
PHILIP JOHN MARTIN,
)
Defendant.
)
__________________________ )
HONORABLE BILLY K. SIPE, JR.
COURT COMMISSIONER/JUDGE PRO TEMPORE
DATE: APRIL 1, 2016
*KL
COURT NOTICE/ORDER/RULING
On October 25, 2012, the defendant, Philip John
Martin, was indicted by the Mohave County Grand
Jury for First Degree Murder, a class 1 felony. The
defendant plead not guilty and the jury trial
commenced on October 7, 2013, and concluded on
October 10, 2013. The then assigned trial court judge,
the Honorable Derek Carlisle, instructed the jury
regarding the definition of premeditated First Degree
Murder pursuant to the Revised Arizona Jury

App. 31
Instructions [hereinafter referred to as RAJI] and
instructed the jury on the less serious offense of Second
Degree Murder. Specifically, the Court instructed the
jury “You may find the defendant guilty of the less
serious crime if all of you agree that the state has failed
to prove the defendant guilty of the more serious crime
beyond a reasonable doubt, or if after reasonable efforts
you are unable to unanimously agree on the more
serious crime, and you do all agree that the state has
proven the defendant guilty of the less serious charge.”
The Court provided the jury with the following single
Verdict Form, as recommended by RAJI:
We, the Jury duly empanelled and sworn in
the above-entitled action, upon our oaths, do find
the defendant on the charge of First Degree
Murder as follows (check only one):
___

Guilty

___

Not Guilty

___

Unable to agree

If you find the defendant guilty of First
Degree Murder, do not complete the remaining
portion of this verdict form, except for the
foreperson’s signature block. Complete this
portion only if you find the defendant either not
guilty of First Degree Murder or you are unable
to decide.
We, the jury, duly empanelled and sworn in
the above entitled action, upon our oaths, do find
the defendant on the lesser-included offense of

App. 32
Second Degree Murder as follows (check only
one):
___

Guilty

___

Not Guilty

On October 10, 2013, the jury rendered the
following verdict:
“We, the Jury, duly empanelled and sworn in
the above entitled action, upon our oaths, do find
the defendant on the charge of First Degree
Murder as follows: Unable to agree” (emphasis
added).
“We, the Jury, duly empanelled and sworn in
the above entitled action, upon our oaths, do find
the defendant on the lesser-included offense of
Second Degree Murder as follows: Guilty”
(emphasis added).
On November 18, 2013, the defendant was
sentenced to the presumptive term of sixteen (16) years
in the Arizona Department of Corrections. The
defendant, thereafter, filed a timely Notice of Appeal
and on December 23, 2014, the Arizona Court of
Appeals, Division I, reversed the defendant’s conviction
for Second Degree Murder and remanded this case
back to the trial court for retrial. The State has
subsequently filed a “Motion for Order That on Retrial
the Defendant Stand Trial for First Degree Murder as
Originally Indicted”. The defense opposes.
The defendant was indicted and tried for First
Degree Murder. The jury was “unable to agree” on First

App. 33
Degree Murder and convicted the defendant of the
lesser offense of Second Degree Murder. The
defendant’s Second Degree Murder was reversed by the
Arizona Court of Appeals and the defendant must now
be retried. The issue is whether the defendant can be
retried for First Degree Murder, as requested by the
State.
The Double Jeopardy Clause of the Fifth
Amendment to the United States Constitution
guarantees that no person shall “be subject for the
same offense to be twice put in jeopardy of life or limb”
and is made applicable to the states through the due
process clause of the Fourteenth Amendment. Benton
v. Maryland, 395 U.S. 784, 89 S.Ct. 2056, 23 L.Ed.2d
707 (1969). Pursuant to Article 2 § 10 of the Arizona
Constitution, “no person shall be compelled in any
criminal case to give evidence against himself or be
twice put in jeopardy for the same offense.” The Double
Jeopardy Clauses in the United States and Arizona
Constitution prohibit: (1) a second prosecution for the
same offense after acquittal; (2) a second prosecution
for the same offense after conviction; and (3) multiple
punishments for the same offense. State v. McPherson,
282 Ariz. 557, 269 P.3d 1181 (App. 2012).The double
jeopardy clause “serves principally as a restraint on
courts and prosecutors.” Brown v. Ohio, 432 U.S. 161,
97 S.Ct. 2221, 53 L.Ed.2d 187 (1977). In a frequently
quoted passage in Green v. United States, 355 U.S.
184, 78 S.Ct. 221, 2 L.Ed.2d 199 (1957), “The
underlying idea ... is that the State with all its
resources and power should not be allowed to make
repeated attempts to convict an individual for an
alleged offense, thereby subjecting him to

App. 34
embarrassment, expense and ordeal and compelling
him to live in a continuing state of anxiety and
insecurity, as well as enhancing the possibility that
even though innocent he may be found guilty.” Id. At
187-188.
The United States Supreme Court has recognized
that, for double jeopardy purposes, an acquittal barring
a second prosecution may be either express or implied
by a conviction on a lesser included offense when the
jury was given the opportunity to return a verdict on
the greater offense. Green, 355 U.S. at 190-191; Price
v. Georgia, 398 U.S. 323, 328-329, 90 S.Ct. 1757, 26
L.Ed.2d 300, 304-305 (1970). Distinct from the implied
acquittal rule, the doctrine of manifest necessity
justifies a retrial following a jury deadlock. In a trial by
jury, the defendant is deemed to have been placed in
jeopardy when the jurors have been impaneled and
sworn. Crist v. Bretz, 437 U.S. 28, 98 S.Ct. 2156, 57
L.Ed.2d 24 (1978). Once this occurs, if a jury is
discharged without returning a verdict, the defendant
cannot be retried unless the defendant consented to the
discharge or manifest necessity requires it. Green, 355
U.S. at 188. The rule permitting retrial following
deadlock “‘accords recognition to society’s interest in
giving the prosecution one complete opportunity to
convict those who have violated its laws.” Arizona v.
Washington, (1978) 434 U.S. 497, 509, 98 S.Ct. 824, 54
L.Ed.2d 717 (1978).
The United States Supreme Court decisions suggest
the doctrine of implied acquittal is inapplicable to cases
in which the jury is expressly deadlocked, rather than
merely silent, on the greater offense. In Selvester v.

App. 35
United States, 170 U.S. 262, 263, 18 S.Ct. 580, 42 L.Ed.
1029 (1898), the Court affirmed the trial court’s receipt
of the jury’s verdict of guilty on three counts, even
though the jury had deadlocked on a fourth count. As
the Court explained, when a jury convicts on some
counts and is silent as to others, the effect of the jury’s
discharge is equivalent to an acquittal barring retrial
on those counts on which the jury failed to render a
verdict because “the record affords no adequate legal
cause for the discharge of the jury.” Id. at p. 269. By
contrast, the Court further explained, when juror
disagreement is formally entered on the record, “[t]he
effect of such entry justifies the discharge of the jury,
and therefore a subsequent prosecution for the offense
as to which the jury has disagreed and on account of
which it has been regularly discharged would not
constitute second jeopardy.” Id. at 269.
In its decisions in Green, supra, 355 U.S. 184, and
Price v. Georgia, supra, 398 U.S. 323, the Supreme
Court again recognized a distinction, for double
jeopardy purposes, between a jury’s silence and its
expressed inability to return a verdict. In Green, the
defendant was charged with arson in count 1, and with
murder by causing the death of a person by arson in
count 2. The trial court instructed the jury it could find
the defendant guilty of arson and either first degree
murder or second degree murder. The jury found the
defendant guilty of arson and of second degree murder,
but was silent on the charge of first degree murder. The
defendant’s conviction was reversed on appeal and on
retrial he was again charged with first degree murder,
and convicted. The Supreme Court held that the retrial
of the defendant on the first degree murder charge

App. 36
violated the double jeopardy clause of the Fifth
Amendment because the defendant had already been
forced to “run the gantlet” on that charge in the first
trial. Further, the failure of the jury to convict him was
an implied acquittal on the charge and because the jury
had been dismissed without rendering an express
verdict on the first degree murder charge, but “was
given a full opportunity to return a verdict and no
extraordinary circumstances appeared which prevented
it from doing so,” the defendant’s jeopardy for first
degree murder came to an end when the jury was
discharged. Id. at 190-191. Pursuant to Green, a jury’s
silence on the greater offense does not constitute
manifest necessity to discharge the jury without a
verdict and retrial of the defendant is therefore barred.
However, Green does not compel the conclusion that
when the jury expressly deadlocks on the greater
offense, but returns a verdict of conviction on the
lesser, the conviction of the lesser operates as an
implied acquittal of the greater. In both Green and
Price v. Georgia, the verdict form was left blank as to
the greater charge. Consequently, an “implied
acquittal” of the greater charge occurred which
precluded retrial on the greater charge. In Richardson
v. United States, 486 U.S. 317, 104 S.Ct. 3081, 82
L.Ed.2d 242 (1984), the defendant was acquitted in
Count I and the jury was not able to agree on the other
two counts; accordingly, the District Court declared a
mistrial as to the remaining counts and scheduled a
retrial. The Supreme Court emphasized that once a
jury is unable to reach a verdict and a declaration of
mistrial has been made by the court, the hung jury is
not the equivalent of an acquittal. Id. At 324.

App. 37
In United States v. Bordeaux, 121 F.3d 1187 (8th
Circuit, 1997), the defendant was charged with
Attempted Aggravated Sexual Abuse and the case
proceeded to jury trial. During deliberations the jury
returned a note which stated “After all reasonable
efforts, we, the jury, were unable to reach a verdict on
the charge of ‘Attempted Aggravated Sexual Abuse.”’
However, the jury found the defendant guilty of the
lesser included offense of Abusive Sexual Contact by
Force. The Court subsequently granted a new trial
after the State notified the Court that the lesser
included jury instruction failed to include the essential
element of force; the Court ordered a new trial on the
greater offense. The 8th Circuit held that “where the
jury expressly indicates that it is unable to reach a
verdict on the greater charge, a conviction on a lesser
included offense does not constitute an implied
acquittal of the greater offense and presents no bar to
retrial on the greater offense.” Id. at 1193.
The Arizona case which most closely discusses the
issue in this case is State v. Espinoza, 233 Ariz. 176,
310 P.3d 52 (App. 2013). In Espinoza, the defendant
was charged with Aggravated Robbery. The jury was
instructed that if they found the defendant not guilty
of Aggravated Robbery, or if they could not reach a
verdict on Aggravated Robbery, they could consider
Theft of Means of Transportation as a lesser-included
offense. The jury informed the trial court that they
were “hung” on the first offense and requested direction
from the Court as to how to proceed. The Court advised
the jury, “Pursuant to the instructions, you may leave
it blank and consider the lesser-offense.” Id. at 178.
The jury left the Aggravated Robbery verdict form

App. 38
blank and convicted the defendant of the lesser offense
of Theft of Means of Transportation.” The defendant’s
conviction was reversed because the Arizona Court of
Appeals, Division II, determined that the trial court
erred in instructing the jury on the lesser included
offense. Id. at 178. After the mandate was issued, the
defendant filed a Motion to Dismiss asserting that the
guilty verdict for the lesser-included offense, which was
reversed, served as an implied acquittal for the greater
offense of Aggravated Robbery. The Espinoza Court
held that the defendant could not be retried for the
greater offense of Aggravated Robbery because the
jury’s silence as to the original charge of Aggravated
Robbery coupled with the guilty verdict of Theft of
Means of Transportation did not demonstrate a
genuine deadlock on the greater charge and,
accordingly, the State did not demonstrate that a
manifest necessity existed for continuing the
defendant’s jeopardy as to Aggravated Robbery. Id. at
181. The Court held that the jury’s silence, at most,
demonstrated that the jury could not reach agreement
as to the greater offense after a “full and careful
consideration of the evidence” and “reasonable efforts”
of deliberations; however, “reasonable efforts” is not the
same as a “genuine deadlock”. Id. at 179-180.
The Court acknowledged that the Arizona Supreme
Court has held that a jury’s mere statement that it has
been unable to reach a verdict after persistent
deliberations does not, without further inquiry by the
court, demonstrate a true deadlock. Gusler v.
Wilkerson, 199 Ariz 391, 18 P.3d 702 (2001). The
Espinoza Court held that there must be a “genuine
deadlock” in order for the State to prove “manifest

App. 39
necessity” allowing a retrial. Id. at 180-181. The Court
recognized that that when the jury is instructed
pursuant to State v LeBlanc, 186 Ariz. 437, 924 P.2d
441 (1996) [the “reasonable efforts” instruction], it may
be impossible for the State to develop a record showing
a genuine deadlock as to the greater offense when the
jury convicts on a lesser charge; before a verdict is
returned a prosecutor has no basis for seeking a
mistrial and after a verdict it is procedurally
inappropriate. Espinoza, 233 Ariz, at 180; 310 P.3d at
56.
In the instant case, the jury was instructed that
“You may find the defendant guilty of the less serious
crime if all of you agree that the state has failed to
prove the defendant guilty of the more serious crime
beyond a reasonable doubt, or if after reasonable
efforts you are unable to unanimously agree on
the more serious crime, ... “(emphasis added). The
Verdict Form regarding the greater charge of First
Degree Murder gave the jury three options: “Guilty”,
“Not Guilty”, “Unable to Agree”. The presiding juror
checked the “Unable to Agree” option. Clearly, the jury,
after reasonable efforts, could not unanimously agree
if the defendant was guilty or not guilty of First Degree
Murder and so indicted on the verdict form. What
distinguishes this case from Espinoza is the trial court
judge here instructed the jury that if after reasonable
efforts they were unable to agree unanimously on the
more serious charge they could consider the less
serious offense. Further, unlike Espinoza, Green, and
Price v. Georgia, the trial court here allowed the jury to
indicate on the verdict form if they were unable to
agree, unanimously, on the greater charge. Based on

App. 40
the jury instruction and based on the verdict form, the
jury clearly indicated that they were deadlocked on the
greater charge because they were unable to agree
unanimously. Accordingly, there was not an implied
acquittal of the greater charge and the court finds
there was a genuine deadlock. Therefore, the Court
finds that the State has demonstrated a manifest
necessity for continuing the defendant’s jeopardy for
First Degree Murder.
Conceptually, the Court agrees with many concerns
raised by the defense. The State tried the defendant for
First Degree Murder and the defendant was convicted
of Second Degree Murder. The defendant was already
put on trial for First Degree Murder and should not be
required to continue to “run the gauntlet”. The Court
ponders, why should the State be allowed another
opportunity to convict the defendant for First Degree
Murder when they already had the opportunity to do
so, and failed. Had the defendant not filed a Notice of
Appeal, and had his conviction reversed, he could not
have be retried for First Degree Murder. The defendant
was sentenced to sixteen (16) years in prison for his
conviction for Second Degree Murder. He subsequently
exercised his rights and sought appellate review. The
Arizona Court of Appeals determined that the trial
court erred by not instructing the jury on the crimeprevention defense and reversed the defendant’s
conviction. It concerns the Court that the defendant
has essentially “forfeited” his sixteen (16) year sentence
and is now risking serving natural life in prison
because he chose to exercise his appellate rights.
However, despite this Court’s equitable concerns, the
Court is convinced that the applicable case law does

App. 41
allow the defendant to be retried for First Degree
Murder.
Accordingly, it is Ordered granting the State’s
Motion for Order That On Retrial the Defendant Stand
Trial for First Degree Murder as Originally Indicted.

App. 42

APPENDIX D
NOTICE: NOT FOR PUBLICATION.
UNDER ARIZONA RULE OF THE SUPREME
COURT 111(c), THIS DECISION DOES NOT
CREATE LEGAL PRECEDENT AND MAY NOT BE
CITED EXCEPT AS AUTHORIZED.
IN THE
ARIZONA COURT OF APPEALS
DIVISION ONE
No. 1 CA-CR 13-0839
[Filed December 23, 2014]
____________________________________
STATE OF ARIZONA, Appellee,
)
)
v.
)
)
PHILIP JOHN MARTIN, Appellant. )
___________________________________ )
Appeal from the Superior Court in Mohave County
No. S8015CR201201326
The Honorable Derek C. Carlisle, Judge Pro Tem
REVERSED AND REMANDED
COUNSEL
Arizona Attorney General’s Office, Phoenix
By Linley Wilson
Counsel for Appellee

App. 43
Mohave County Legal Advocate, Kingman
By Jill L. Evans
Counsel for Appellant
MEMORANDUM DECISION
Presiding Judge Patricia K. Norris delivered the
decision of the Court, in which Judge Lawrence F.
Winthrop and Judge John C. Gemmill joined.
N O R R I S, Judge:
¶1
Philip John Martin appeals from his conviction
for second degree murder, arguing the superior court
should have instructed the jury on the crimeprevention defense under Arizona Revised Statutes
(“A.R.S.”) section 13-411 (Supp. 2014),1 and should not
have admitted the victim’s dying declarations over his
Confrontation Clause objection. We agree with Martin’s
first argument and reverse and remand for a new trial
for that reason. Because the evidentiary issue will
recur upon retrial, we address it as well and conclude
the court properly admitted the statements because
they were non-testimonial.

1

Although the Arizona Legislature amended certain statutes cited
in this decision after the date of Martin’s offense, the revisions are
immaterial to the resolution of this appeal. Thus, we cite to the
current version of these statutes.

App. 44
FACTS AND PROCEDURAL BACKGROUND2
¶2
Martin and the victim were neighbors and used
the same rough dirt access road to reach their homes.
Martin routinely placed railroad ties and other debris
in the road in front of his driveway to counteract ruts
that would form when motorists drove their vehicles on
the road after a rainstorm. The victim removed a
railroad tie from the road in front of Martin’s driveway
while driving home in his Jeep. The victim told his
friend Brian he was “gonna go ask why he keeps doing
that.” As the victim started walking down Martin’s
driveway, Brian heard and saw “the muzzle blast of the
gun out the front window” of Martin’s house and saw
the victim “hit the ground.” The victim died of a
shotgun wound to his abdomen.
¶3
A grand jury indicted Martin for first degree,
premeditated, murder. Martin admitted shooting the
victim, but testified at trial that he did so because the
victim ignored his demands that he get off his property
and because he believed the victim was armed and was
coming towards his home to harm him. The superior
court instructed the jury on the use of physical force
and deadly physical force in self-defense pursuant to
A.R.S. §§ 13-404 (2010), 13-405 (Supp. 2014), and in
defense of premises pursuant to 13-407 (2010). It
rejected Martin’s request, however, that it also instruct
the jury on the use of force and deadly force in crime-

2

We view the facts in the light most favorable to sustaining the
jury’s verdict and resolve all reasonable inferences against Martin.
State v. Vandever, 211 Ariz. 206, 207 n.2, 119 P.3d 473, 474 n.2
(App. 2005).

App. 45
prevention under A.R.S. § 13-411 because it found the
evidence insufficient to warrant that instruction. The
jury found Martin guilty of the lesser included offense
of second degree murder.
DISCUSSION
I. Crime Prevention Instruction
¶4
On appeal, Martin argues the trial evidence
supported his requested crime-prevention instruction
and, thus, the court should have instructed the jury on
this defense. We agree with Martin. See State v.
Anderson, 210 Ariz. 327, 343, ¶ 60, 111 P.3d 369, 385
(2005) (appellate court reviews trial court’s refusal to
give jury instruction for abuse of discretion; defendant
is “entitled to instruction on any theory reasonably
supported by the evidence”).
¶5
Section 13-411 provides that a person “is
justified in threatening or using both physical force and
deadly physical force against another if and to the
extent the person reasonably believes that physical
force or deadly physical force is immediately necessary”
to prevent certain specified crimes, including
aggravated assault as defined in A.R.S. § 131204(A)(1), (2) (Supp. 2014) (causing “serious physical
injury to another” or using a “deadly weapon or
dangerous instrument”). Here, the trial evidence
supported the crime-prevention instruction based on
aggravated assault.
¶6
Martin testified he feared for his safety because,
as the victim walked towards his house, he saw a bulge
on the victim’s side, under his shirt, and feared the
victim might have a gun. Martin explained he believed

App. 46
he needed to act because the victim continued to walk
towards his house despite his repeated warnings to the
victim that he was armed and his demands that the
victim leave his property. Martin further testified the
victim looked “determined, like nothing was going to
stop him” as he advanced toward the house, and that is
when he “got scared” and thought “what’s going to
happen when he gets to my door” and pulled the
trigger. This testimony, coupled with evidence that at
the time of the shooting the victim had a .165 blood
alcohol content and “always” kept a pistol in his Jeep,
was sufficient to provide “the slightest evidence” for the
crime-prevention instruction. See State v. Hussain, 189
Ariz. 336, 338, 942 P.2d 1168, 1170 (App. 1997)
(defendant’s version of events provided “slightest
evidence” in support of crime-prevention instruction).
¶7
The State argues, however, that Martin’s belief
he was acting to prevent an aggravated assault was not
reasonable in light of his testimony that he did not see
anything in the victim’s hands or see the victim reach
for a weapon as he walked up the driveway.
Nonetheless, whether Martin’s belief was reasonable
under the circumstances was a question for the jury to
resolve in determining if his conduct was justified. And,
it was also for the jury to resolve contradictory
statements in Martin’s testimony. See, e.g., State v.
Mercer, 13 Ariz. App. 1, 2, 473 P.2d 803, 804 (1970)
(“evidence is no less substantial simply because the
testimony is conflicting or reasonable persons may
draw different conclusions therefrom”).
¶8
The State also argues the superior court’s
decision not to instruct on crime-prevention, if error,

App. 47
was harmless. Error “is harmless if we can say, beyond
a reasonable doubt, that the error did not contribute to
or affect the verdict.” State v. Bible, 175 Ariz. 549, 588,
858 P.2d 1152, 1191 (1993). “The inquiry . . . is not
whether, in a trial that occurred without the error, a
guilty verdict would surely have been rendered, but
whether the guilty verdict actually rendered in this
trial was surely unattributable to the error.” Id.
(quoting Sullivan v. Louisiana, 508 U.S. 275, 279, 113
S. Ct. 2078, 2081, 124 L. Ed. 2d 182 (1993)). “We must
be confident beyond a reasonable doubt that the error
had no influence on the jury’s judgment.” Id.
¶9
Unlike the self-defense and defense of premises
statutes, A.R.S. § 13-411(C) establishes a presumption
that a person is acting reasonably if he acted to
“prevent what the person reasonably believes is the
imminent or actual commission” of the specified crimes,
including aggravated assault. No such presumption is
contained in A.R.S. §§ 13-404, -405, or -407.
Nevertheless, the State further argues the presumption
has essentially been rendered redundant by statutory
changes that now place the burden on the State to
prove beyond a reasonable doubt that a defendant did
not act with justification in all instances in which he or
she raises a justification defense. See A.R.S. § 13-205
(2010). The Legislature, however, also specifically
directed that the changes would not affect the
presumption contained in A.R.S. § 13-411. See A.R.S.
§ 13-205(B) (“This section does not affect the
presumption contained in § 13-411, subsection C.”)
(emphasis added). Furthermore, unlike the self-defense
statute, under A.R.S. § 13-411, “the only limitation
upon the use of deadly force . . . is the reasonableness

App. 48
of the response” whereas the self-defense statute
requires “an immediate threat to personal safety before
deadly force may be used.” State v. Korzep, 165 Ariz.
490, 492, 799 P.2d 831, 833 (1990). Thus, A.R.S. § 13411 permits the use of deadly physical force “if and to
the extent” a person reasonably believes it is necessary
to prevent the commission of one of the listed offenses
rather than only in response to another’s use or
attempted use of unlawful deadly force. Hussain, 189
Ariz. at 339, 942 P.2d at 1171.
¶10 On this record, we cannot say beyond a
reasonable doubt that the protections offered by A.R.S.
§ 13-411(C) would not have caused a jury properly
instructed about the crime-prevention defense to find
Martin justified in shooting the victim to prevent an
aggravated assault. Bible, 175 Ariz. at 588, 858 P.2d at
1191. Accordingly, we reverse Martin’s conviction and
remand for a new trial.
II. Victim’s Statements to Deputies
¶11 Martin next argues the superior court should not
have admitted the statements made by the victim to
police officers over his Confrontation Clause objection.
The superior court found the statements were dying
declarations under Arizona Rule of Evidence 804(b)(2)
and admissible under the Confrontation Clause
because “the emergency [in this case] was still
ongoing.” We review de novo a superior court’s
Confrontation Clause decision, State v. Tucker, 215
Ariz. 298, 315, ¶ 61, 160 P.3d 177, 194 (2007), and, as
we explain, the superior court did not violate the
Confrontation Clause in admitting the victim’s dying
declarations.

App. 49
¶12 The Confrontation Clause provides, “[i]n all
criminal prosecutions, the accused shall enjoy the right
. . . to be confronted with the witnesses against him.”
U.S. Const. amend. VI. In Crawford v. Washington, 541
U.S. 36, 54, 124 S. Ct. 1354, 1365, 158 L. Ed. 2d 177
(2004), the Supreme Court held a testimonial
statement by a witness who does not appear at trial
must be excluded under the Confrontation Clause
unless the witness is unavailable and the defendant
“had a prior opportunity for cross-examination.” The
Court did not define “testimonial,” but enumerated a
“core class of ‘testimonial’ statements” as including
“affidavits, custodial examinations, . . . depositions,
prior testimony, . . . confessions, . . . [and] [s]tatements
taken by police officers in the course of interrogations”
and any other “statements that were made under
circumstances which would lead an objective witness
reasonably to believe that the statement would be
available for use at a later trial.” Id. at 51-52, 124 S.
Ct. at 1364.
¶13 In Davis v. Washington, 547 U.S. 813, 817, 126
S. Ct. 2266, 2270, 165 L. Ed. 2d 224 (2006), the
Supreme Court considered whether statements made
to a 911 operator were testimonial under the
Confrontation Clause. The Court held statements are
“nontestimonial when made in the course of police
interrogation under circumstances objectively
indicating that the primary purpose of the
interrogation is to . . . meet an ongoing emergency.” Id.
at 822, 126 S. Ct. at 2273. Conversely, statements are
“testimonial when the circumstances objectively
indicate that there is no such ongoing emergency, and
that the primary purpose of the interrogation is to

App. 50
establish or prove past events potentially relevant to
later criminal prosecution.” Id. at 822, 126 S. Ct. at
2273-74. The Supreme Court thus focused the
testimonial inquiry under the Confrontation Clause to
the “primary purpose” of the interrogation. Id.; State v.
Alvarez, 213 Ariz. 467, 471, ¶ 15, 143 P.3d 668, 672
(App. 2006).
¶14 More recently, in Michigan v. Bryant, 562 U.S.
344, —, 131 S. Ct. 1143, 1156, 179 L. Ed. 2d 93 (2011),
the Supreme Court clarified the “primary purpose”
analysis. The Court held that determination of the
“primary purpose” of the exchange required an
objective analysis of its circumstances:
An objective analysis of the circumstances of an
encounter and the statements and actions of the
parties to it provides the most accurate
assessment of the ‘primary purpose of the
interrogation.’ The circumstances in which an
encounter occurs—e.g., at or near the scene of
the crime versus at a police station, during an
ongoing emergency or afterwards—are clearly
matters of objective fact. The statements and
actions of the parties must also be objectively
evaluated. That is, the relevant inquiry is not
the subjective or actual purpose of the
individuals involved in a particular encounter,
but rather the purpose that reasonable
participants would have had, as ascertained
from the individuals’ statements and actions and
the circumstances in which the encounter
occurred.
Id.

App. 51
¶15 The Court further explained that “the existence
of an ongoing emergency is relevant to determining the
primary purpose of the interrogation because an
emergency focuses the participants on . . . ending a
threatening situation” rather than on “proving past
events potentially relevant to later criminal
prosecution.” Id. at —, 131 S. Ct. at 1157.
¶16 Applying these principles here, the victim’s
dying declarations were not testimonial; the victim
made them during an ongoing emergency and the
primary purpose of his exchange with police officers
was to enable them to react and respond to this
emergency.
¶17 The trial evidence established that the police
officers arrived at the crime scene shortly after the
shooting occurred with the victim lying on the ground
in a pool of blood coming from “numerous gun shot
holes to his abdomen.” The officers saw that the victim
was in a critical condition, bleeding profusely, gasping
for air and “coming in and out of consciousness.” In an
effort to render medical aid to the victim, one officer
“started applying pressure and talking to [the victim],
trying to keep him alert.” Although it is not clear which
officer is speaking, a voice can be heard on the
recording of the exchange played to the jury urging the
victim to “stay with me buddy.”
¶18 It is in this context that the police officers asked
the victim if he knew who shot him (the victim
responded, “Phil,” and identified Phil as a neighbor),
why he had been shot (the victim responded, because
he was “walking up [Phil’s] driveway”), and whether
Phil had said anything else to him (the victim

App. 52
responded, “[s]aid don’t walk up my driveway anymore,
after I was on the ground already”). Although Martin
had already told one of the officers he had shot the
victim and one of the officers had placed him in a patrol
car when the officers began to speak to the victim, the
officers had not secured the crime scene. Viewed
objectively, these circumstances reflect the primary
purpose of the exchange between the officers and the
victim was to enable the officers to react and respond
to an ongoing emergency which included trying to keep
the victim alive. Accordingly, the victim’s statements to
the officers were non-testimonial, and the court did not
violate Martin’s Confrontation Clause rights in
admitting them into evidence.
CONCLUSION
¶19 For the foregoing reasons, we reverse Martin’s
conviction and remand for further proceedings
consistent with this decision.

App. 53

APPENDIX E
[SEAL]
SUPREME COURT
STATE OF ARIZONA
ARIZONA STATE COURTS BUILDING
1501 WEST WASHINGTON STREET, SUITE 402
PHOENIX, ARIZONA 85007-3231
TELEPHONE: (602) 452-3396
[Dated July 10, 2015]
SCOTT BALES
CHIEF JUSTICE
JANET JOHNSON
CLERK OF THE COURT
July 10, 2015
RE:

STATE OF ARIZONA v PHILIP JOHN
MARTIN
Arizona Supreme Court No. CR-15-0034-PR
Court of Appeals, Division One No. 1 CA-CR 13-0839
Mohave County Superior Court No. CR201201326

GREETINGS:
The following action was taken by the Supreme Court
of the State of Arizona on July 10, 2015, in regard to
the above-referenced cause:

App. 54
ORDERED: The State of Arizona’s Petition for
Review= DENIED.
Janet Johnson, Clerk
TO:
Joseph T Maziarz
Linley Wilson
Jill L Evans
Philip John Martin, ADOC #286103, Arizona State
Prison, Tucson Winchester Unit
Ruth Willingham
kd

App. 55

APPENDIX F
IN THE SUPERIOR COURT
MOHAVE COUNTY, STATE OF ARIZONA
CASE NO: CR-2012-01326
[Filed August 1, 2016]
___________________________
STATE OF ARIZONA,
)
Plaintiff,
)
)
vs.
)
)
PHILIP JOHN MARTIN,
)
Defendant.
)
__________________________ )
HONORABLE BILLY K. SIPE, JR.
JUDGE PRO TEMPORE COURTROOM: B
COURT REPORTER: LINDA CANTRELL
VIRLYNN TINNELL, CLERK OF SUPERIOR COURT
BY: TRACY DOGGETT, DEPUTY CLERK
HEARING DATE: AUGUST 1, 2016
JUDGMENT & SENTENCING PRISON
START: 11:36 A.M.
DATE OF BIRTH: June XX, 19XX
The State is represented by James Schoppmann,
Deputy County Attorney; the Defendant is present with
counsel, Gerald Gavin.

App. 56
The Defendant is advised of the charge, the
determination of guilt and is given the opportunity to
speak.
The Court is presented with an email from the Victim’s
daughter.
The Clerk of the Court is directed to redact the Victim’s
email address from the original email prior to filing it
in the Court’s file.
The Victim’s son is given the opportunity to speak.
Pursuant to A.R.S. §13-607, the Court finds as follows:
JURY VERDICT: The determination of guilt was
based upon a verdict of guilty after a Jury Trial.
Having found no legal cause to delay rendition of
judgment and pronouncement of sentence, the Court
enters the following Judgment and Sentence.
IT IS THE JUDGMENT OF THE COURT that the
Defendant is guilty of the following crime(s), that upon
due consideration of all the facts, law and
circumstances relevant here, the Court finds that
suspension of sentence and a term of probation are not
appropriate and that a sentence of imprisonment with
the Arizona Department of Corrections is appropriate.
THE COURT FURTHER FINDS that there are
circumstances sufficiently substantial to call for a
Presumptive or Aggravated or Mitigated term as
indicated. These circumstances are stated by the Court
on the record.

App. 57
AS PUNISHMENT, IT IS ORDERED that the
Defendant is sentenced to a term of imprisonment and
is committed to the Arizona Department of Corrections
as follows:
OFFENSE: Count 1 – First Degree Murder
FELONY CLASS: 1
IN VIOLATION OF A.R.S. §§: 13-1105(A)(1), 13-1101,
13-701, 13-702, 13-751, 13-752 and 13-801
DATE OF OFFENSE: On or about October 18, 2012
SENTENCE: Life in prison without the possibility of
parole with the Arizona Department of Corrections
This sentence is to date from August 1, 2016. The
Defendant is to be given credit for 1,383 days served
prior to sentencing.
IT IS FURTHER ORDERED remanding the
Defendant to the custody of the Sheriff.
Commissioner
Court

08/01/2016 BILLY K. SIPE, JR,
Date
Judge Pro Tempore
/s/
Deputy Clerk

NO. CR-2012-01326
STATE VS. Philip John Martin
The Defendant is advised concerning rights of
appeal/review and written notice of those rights are
provided.
[T] ORDERED exonerating any bond.

App. 58
[ ] ORDERED granting the State’s Motion to Dismiss
any charges/allegations pursuant to the plea
agreement; all charges in ________________.
ORDERED authorizing the Sheriff of Mohave County
to deliver the Defendant to the custody of the Arizona
Department of Corrections to carry out the term of
imprisonment set forth herein.
ORDERED that the Clerk of the Court shall remit to
the Department of Corrections a copy of this order
together with all pre-sentence reports, probation
violation reports, medical and psychological reports
relating to the Defendant and involving this case.
[ ] ORDERED allowing Counsel for the Defendant to
withdraw as counsel of record.
Let the record reflect that the Defendant’s fingerprint
is permanently affixed to this sentencing order in open
Court.
Notice of Rights of Appeal/Review signed by the
Defendant.
Hearing concludes at 12:00 a.m./p.m.
/s/
Honorable Billy K. Sipe, Jr.

App. 59

APPENDIX G
IN THE SUPERIOR COURT OF THE STATE OF
ARIZONA
IN AND FOR THE COUNTY OF MOHAVE
NO. CR-2012-1326
[Filed October 10, 2013]
___________________________
STATE OF ARIZONA,
)
Plaintiff,
)
)
vs.
)
)
PHILIP JOHN MARTIN,
)
Defendant.
)
__________________________ )
VERDICT
We, the Jury duly empanelled and sworn in the
above-entitled action, upon our oaths, do find the
defendant on the charge of First Degree Murder as
follows (check only one):
___

Guilty

___

Not Guilty

__T

Unable to agree

If you find the defendant guilty of First Degree
Murder, do not complete the remaining portion of this
verdict form, except for the foreperson’s signature

App. 60
block. Complete this portion only if you find the
defendant either not guilty of First Degree Murder or
you are unable to decide.
We, the jury, duly empanelled and sworn in the above
entitled action, upon our oaths, do find the defendant
on the lesser-included offense of Second Degree Murder
as follows (check only one):
__T

Guilty

___

Not Guilty

App. 61

APPENDIX H
IN THE SUPERIOR COURT OF
THE STATE OF ARIZONA
IN AND FOR THE COUNTY OF MOHAVE
Court of Appeals
Division One
No. 1 CA-CR 13-0839
Mohave County
Superior Court
No. S8015-CR-2012-01326
[Dated October 10, 2013]
___________________________
STATE OF ARIZONA,
)
Plaintiff,
)
)
vs.
)
)
PHILIP JOHN MARTIN,
)
Defendant.
)
__________________________ )
Kingman, Arizona
Thursday, October 10, 2013
9:39 a.m.
BEFORE: The Honorable Derek Carlisle, Judge Pro
Tempore
REPORTER’S TRANSCRIPT OF PROCEEDINGS
Jury Trial – Day 4

App. 62
Reported by:

Norma Jean DeLong, RPR,
Official Reporter, 25
Certified Reporter #50717

***
[p.67]
And by my comments I’m not saying it should take
you a specific period of time to reach a verdict or even
that you are going to be able to reach a verdict in this
case.
All I’m saying is, if you’re still deliberating at a time
that you want lunch, let us know, and we’ll get lunch
brought in to you.
So at this point you are allowed to go to the jury
room and begin your deliberations.
(The following was held outside the presence of the
jury.)
THE COURT: Thank you. Please be seated.
The record should reflect the jury has left.
Make sure that you let my judicial assistant know
how to get ahold of you so if the jury reaches a verdict
we can let everybody know.
Anything else in this case at this point in time.
MR. BEININGEN: No, Your Honor.
MR. SCHOPPMANN: No, Your Honor.
THE COURT: All right. We’ll stand at recess.

App. 63
(The proceedings recessed from 11:24 a.m. to
1:41 p.m.)
(The following was held in
[p.68]
the presence of the jury.)
THE COURT: Thank you. Please be seated.
This is a continuation of CR-2012-1326, State of
Arizona versus Philip Martin.
Show for the record the presence of the defendant,
both counsel, and the jury.
And my first question is, who is the presiding juror?
JUROR NO. 10: I am.
THE COURT: So that’s Ms. Shauer, also known as
Ms. Trejo?
JUROR NO. 10: Uh-huh.
THE COURT: All right. And is it Shower, S-H-O-WE-R?
JUROR NO. 10: It’s S-H-A-U-E-R.
THE COURT: Okay. That’s -JUROR NO. 10: S-H-A-U-E-R.
THE COURT: All right. Ms. Shauer, if you can give
the -- all the forms of verdict to the bailiff, please. I
guess there is only one form of verdict.

App. 64
The clerk will read and record the verdict, omitting
the caption.
THE CLERK: “We, the jury, duly empaneled and
sworn in the above-entitled action, upon our oaths, do
find the defendant on the charge of first degree murder
as
[p.69]
follows: Unable to agree.”
“We, the jury, duly empaneled and sworn in the
above-entitled action, upon our oaths, do find the
defendant on the lesser-included offense of second
degree murder as follows: Guilty,” signed the presiding
juror.
THE COURT: Does either counsel wish to have the
jury polled?
MR. BEININGEN: Yes, Your Honor.
THE COURT: All right. Ladies and gentlemen of
the jury, I’m going to now ask each of you if this is the
verdict that you did agree to.
If this is the verdict you agreed to, you just need to
tell me that.
If this is not the verdict you agreed to or if the
presiding juror signed or checked the wrong box in the
verdict form, now would be the time to let me know.
Juror Number 1, is such your verdict?
JUROR NO. 1: Yes.

App. 65
THE COURT: Juror Number 2, is such your
verdict?
JUROR NO. 2: Yes.
THE COURT: Juror Number 3, is such your verdict?
JUROR NO. 3: Yes.
THE COURT: Juror Number 4, is such your
[p.70]
verdict?
JUROR NO. 4: Yes.
THE COURT: Juror Number 6, is such your verdict?
JUROR NO. 6 : Yes.
THE COURT: Juror Number 7, is such your verdict?
JUROR NO. 7: Yes.
THE COURT: Juror Number 8, is such your verdict?
JUROR NO. 8 : Yes.
THE COURT: Juror Number 9, is such your verdict?
JUROR NO. 9: Yes.
THE COURT: Juror Number 10, is such your
verdict?
JUROR NO. 10: Yes.
THE COURT: Juror Number 11, is such your
verdict?

App. 66
JUROR NO. 11: Yes.
THE COURT: Juror Number 12, is such your
verdict?
JUROR NO. 12: Yes.
THE COURT: Juror Number 13, is such your
verdict?
[p.71]
JUROR NO. 13: Yes.
THE COURT: All right. Can both counsel approach,
please?
(A bench conference was held.)
THE COURT: All right. Ladies and gentlemen of
the jury, we have one other thing that we need you to
do. It’s going to take me a few minutes to get
everything ready.
So I’m going to give you a break at this point in
time. It will probably be about a 10- or 15-minute
break.
Obviously, you’ve already reached a verdict, so you
can talk about this case if you want to with yourselves.
Don’t talk to anybody else about this case. Don’t
discuss your verdict with anybody. I’m going to make
sure nobody talks to you during this break.
And then just be back in the jury room, ready to go
in about ten minutes.

App. 67
And the lawyers and I will stay and talk about some
things, and then we’ll be ready to go in about ten
minutes.
So you are excused for about ten minutes.
(The following was held outside the presence of the
jury.)
***

App. 68

APPENDIX I
IN THE SUPERIOR COURT
MOHAVE COUNTY, STATE OF ARIZONA
CASE NO: CR-2012-01326
[Filed November 8, 2013]
___________________________
STATE OF ARIZONA,
)
Plaintiff,
)
)
vs.
)
)
PHILIP JOHN MARTIN,
)
Defendant.
)
__________________________ )
HONORABLE DEREK CARLISLE
JUDGE PRO TEMPORE COURTROOM: B
COURT REPORTER: NORMA DELONG
VIRLYNN TINNELL, CLERK OF SUPERIOR COURT
BY: JESSICA HIPES, DEPUTY CLERK
HEARING DATE: 11/08/2013
JUDGMENT & SENTENCING PRISON
START: 10:32 A.M.
DATE OF BIRTH: June XX, 19XX
The State is represented by James Schoppmann,
Deputy County Attorney; the Defendant is present with
counsel, Eric Beiningen.

App. 69
This is the time set for Judgment and Sentencing.
The Defendant is advised of the charge, the
determination of guilt and is given the opportunity to
speak.
Pursuant to A.R.S. §13-607, the Court finds as follows:
JURY VERDICT: The determination of guilt was
based upon a verdict of guilty after a Jury Trial.
Having found no legal cause to delay rendition of
judgment and pronouncement of sentence, the Court
enters the following Judgment and Sentence.
IT IS THE JUDGMENT OF THE COURT that the
Defendant is guilty of the following crime(s), that upon
due consideration of all the facts, law and
circumstances relevant here, the Court finds that
suspension of sentence and a term of probation are not
appropriate and that a sentence of imprisonment with
the Arizona Department of Corrections is appropriate.
THE COURT FURTHER FINDS that there are
circumstances sufficiently substantial to call for a
Presumptive or Aggravated or Mitigated term as
indicated. These circumstances are stated by the Court
on the record.
AS PUNISHMENT, IT IS ORDERED that the
Defendant is sentenced to a term of imprisonment and
is committed to the Arizona Department of Corrections
as follows:
OFFENSE: Murder in the 2nd Degree
FELONY CLASS: 1

App. 70
IN VIOLATION OF A.R.S. §§: 13-1104, 13-701, 13710 and 13-801
DATE OF OFFENSE: October 18, 2012
SENTENCE: 16 years with the Arizona Department of
Corrections.
This is a presumptive sentence. This offense is nonrepetitive Class 1 Felony.
This sentence is to date from November 8, 2013. The
Defendant is to be given credit for 386 days served
prior to sentencing.
IT IS ORDERED reserving restitution for a
reasonable amount of time.
IT IS ORDERED authorizing the Sheriff of Mohave
County to deliver the Defendant to the custody of the
Arizona Department of Corrections to carry out the
term of imprisonment set forth herein.
IT IS ORDERED that the Clerk of the Court shall
remit to the Department of Corrections a copy of this
order together with all pre-sentence reports, probation
violation repots, medical and psychological repots
relating to the Defendant and involving this case.
IT IS FURTHER ORDERED remanding the
Defendant to the custody of the Sheriff.
Notice of Rights of Appeal/Review signed by the
Defendant.

App. 71
Commissioner
Court

11/8/13
Date

DEREK C. CARLISLE
Judge Pro Tempore
/s/
Deputy Clerk

NO. CR-2012-01326
STATE VS. Philip John Martin
[T] ORDERED exonerating any bond.
[ ] ORDERED granting the State’s Motion to Dismiss
any charges/allegations pursuant to the plea
agreement; all charges in ________________.
FILED: Conditions of Probation and Notice of Rights
of Appeal/Review, both signed by the Defendant and
copies provided to the Defendant.
[ ] ORDERED allowing Counsel for the Defendant to
withdraw as counsel of record.
Let the record reflect that the Defendant’s fingerprint
is permanently affixed to this sentencing order in open
Court.
The Court recesses at 11:15 a.m./p.m.
/s/
Honorable Derek C. Carlisle
[Image of Fingerprint]
[Fingerprint]

App. 72
cc:
MOHAVE COUNTY ATTORNEY
/s/ LDO- Beiningen
ATTORNEY FOR DEFENDANT
MOHAVE COUNTY PROBATION
[X] MOHAVE COUNTY JAIL
HONORABLE DEREK C. CARLISLE
JUDGE PRO TEMPORE
Mohave County Sheriff/Transport
Arizona Dept. of Corrections

